No. 20A94

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC. ET AL., Applicants,
v.
GAVIN NEWSOM, Respondent.

CERTIFICATE OF ELECTRONIC SERVICE
I, Seth E. Goldstein, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on November 30, 2020, consistent with this Court’s order of April
15, 2020, and all parties’ consent, an electronic copy of State Respondents’ Opposition
to Emergency Application for Writ of Injunction in the above-entitled case was served
by electronic mail upon:
Mathew D. Staver
Roger K. Gannam
Horatio G. Mihet
Daniel J. Schmid

LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
Counsel for Applicants
court@LC.org
rgannam@LC.org
hmihet@LC.org
dschmid@LC.org

I further certify that all parties required to be served have been served.
/s/ Seth E. Goldstein
SETH E. GOLDSTEIN
Deputy Attorney General
Office of the Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Counsel for Respondent

